March 2009
Report No. AUD-09-009


Oversight Management of the Contract
with the ARAMARK Corporation




            AUDIT REPORT
                                                    Report No. AUD-09-009                                       March 2009

                                                    Oversight Management of the Contract
                                                    with the ARAMARK Corporation
        Federal Deposit Insurance Corporation       Audit Results
  Why We Did The Audit                              The FDIC has established controls to help ensure proper oversight
                                                    management of its contract with ARAMARK in all but 1 of the 11
  In February 2007, the FDIC’s Division of          oversight management areas that we assessed (contractor personnel
  Administration (DOA) awarded a contract           qualifications). For example, the FDIC established policies and
  to the ARAMARK Corporation                        procedures for reviewing and approving invoices and monitoring and
  (ARAMARK) to manage and operate the               inspecting contractor services; a Contract Management Plan to guide the
  Corporation’s Student Residence Center            FDIC’s oversight management of ARAMARK; and a Quality Assurance
  (SRC) in Arlington, Virginia, and                 Plan to ensure quality and timely services from ARAMARK.
  cafeterias in the Virginia Square facility
  and Headquarters building in Arlington            The above actions were positive. However, the FDIC’s implementation of
  and Washington, D.C., respectively. The           controls needed improvement in 9 of the 11 areas that we assessed. Of
  contract, which has a ceiling price of            particular note, the FDIC had not obtained a physical inventory of FDIC-
  approximately $51 million and a term of           furnished equipment including small wares (e.g., glassware, tableware, and
  10 years (including option periods), is one       flatware) for the cafeterias covered under the contract. The FDIC had also
  of the FDIC’s highest-dollar contracts.           not identified emergency response and continual-use requirements
                                                    pertaining to the SRC and cafeterias operated by ARAMARK. In addition,
  The audit objective was to assess key             although the FDIC reviews ARAMARK’s invoices and supporting
  oversight management controls pertaining          documentation for accuracy, reasonableness, and compliance with the
  to the FDIC’s contract with ARAMARK.              terms of the contract, charges on the invoices were not traced (on a sample
                                                    basis) to original documentation.
  Background
                                                    Recommendations and Management Response
  DOA is responsible for the administration
  and oversight management of the                   We recommended that the Director, DOA:
  ARAMARK contract. DOA has
                                                    •   Amend the ARAMARK contract to reflect the FDIC’s practice for
  published the Acquisition Policy Manual
                                                        ensuring that contractor and subcontractor personnel meet minimum
  (APM), which defines policies and
                                                        qualification requirements.
  procedures for procuring goods and
  services and assigning roles and                  •   Develop emergency response and continual-use requirements for the SRC
  responsibilities in all phases of the                 and cafeterias and incorporate these requirements into the FDIC’s
  procurement process. Among other                      Emergency Preparedness Program manual.
  things, the APM requires the appointment
                                                    •   Amend the Contract Management Plan to require that the Oversight
  of an Oversight Manager to monitor and
                                                        Manager and/or Contracting Officer:
  evaluate contractor performance.
                                                        o    Obtain and maintain up-to-date Certificates of Insurance Coverage
  The audit focused on assessing 11 key                 o    Maintain and periodically inspect FDIC-provided equipment
  oversight management controls designed                     inventories
  to ensure that ARAMARK complies with                  o    Assess ARAMARK’s internal corporate audits
  the terms and conditions of its contract              o    Conduct periodic verifications or audits of ARAMARK invoices
  with the FDIC. The 11 controls pertain to             o    Ensure ARAMARK’s emergency response and continual-use plans
  contractor personnel qualifications,                       support the FDIC’s Emergency Preparedness Program
  contractor insurance coverage, FDIC-                  o    Participate in sanitation audits
  furnished equipment, internal contractor
  audits, invoice review and approval,              The FDIC took responsive actions to address the recommendations related
  accounting for contractor cash receipts,          to personnel qualifications and the Contract Management Plan prior to the
  emergency preparedness, evaluating                issuance of our report, and the recommendations are closed. The FDIC
  contractor performance, quality assurance,        was in the process of taking responsive action to address the
  monitoring and inspection of contractor           recommendation related to the emergency response and continual use
  performance, and contract management              requirements for the SRC and cafeterias, and we will close this
  planning.                                         recommendation once agreed-to action is completed.

To view the full report, go to www.fdicig.gov/2009reports.asp.
Contents                                                      Page

BACKGROUND                                                      1
  The ARAMARK Contract                                          1
  Contract Administration and Oversight Management              2
  ARAMARK Contract Financial Information                        3

RESULTS OF AUDIT                                                3

OVERSIGHT MANAGEMENT OF THE ARAMARK CONTRACT                    4
  Personnel Qualifications                                      4
  Certificate of Insurance Coverage                             5
  FDIC-furnished Equipment                                      5
  Internal Contractor Audits                                    6
  Invoice Review and Approval                                   7
  Cash Receipts                                                 7
  Emergency Preparedness Program                                8
  Award Term Plan                                               8
  Quality Assurance Plan                                        9
  Monitoring and Inspection of Contractor Services              9
  Contract Management Plan                                     10
  Recommendations to Improve Oversight Management Practices    10

CORPORATION COMMENTS AND OIG EVALUATION                        11

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                         12
  2. FINANCIAL INFORMATION FOR THE ARAMARK CONTRACT            15
  3. CORPORATION COMMENTS                                      16
  4. MANAGEMENT RESPONSE TO RECOMMENDATIONS                    18
  5. ACRONYMS USED IN THE REPORT                               19

TABLES
  1. ARAMARK Contract Information                               2
  2. ARAMARK Contract Sales Revenues, Management Fees,          3
     Reimbursed Expenses, and Subsidy
  3. ARAMARK’s Internal Audits                                  6
     Federal Deposit Insurance Corporation                                                           Office of Audits
     3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


     DATE:                                     March 31, 2009

     MEMORANDUM TO:                            Arleas Upton Kea, Director
                                               Division of Administration


                                               /Signed/
     FROM:                                     Russell A. Rau
                                               Assistant Inspector General for Audits

     SUBJECT:                                  Oversight Management of the Contract with the
                                               ARAMARK Corporation
                                               (Report No. AUD-09-009)


     This report presents the results of our audit of the FDIC’s oversight management of the
     contract with ARAMARK Corporation (ARAMARK)1 to manage and operate the
     Corporation’s Student Residence Center (SRC) in Arlington, Virginia, and cafeterias in
     the FDIC’s Headquarters building and Virginia Square facility in Washington D.C., and
     Arlington, respectively. The contract also provides for executive dining room operations,
     sales and marketing support, and conference planning. The FDIC’s Division of
     Administration (DOA) is responsible for the administration and oversight of the
     ARAMARK contract.

     The audit objective was to assess key oversight management controls pertaining to the
     FDIC’s contract with ARAMARK. Appendix 1 of this report discusses our audit
     objective, scope, and methodology in detail.


BACKGROUND

The ARAMARK Contract

     On October 10, 2006, the FDIC’s Board of Directors approved contract expenditure
     authority totaling $49,225,039 to manage and operate the SRC and the cafeterias at the
     Corporation’s Headquarters building and the Virginia Square facility over a 10-year
     period. On February 14, 2007, DOA awarded a contract to ARAMARK valued at



     1
      ARAMARK changed its name from ARAMARK Services, Inc. to ARAMARK Corporation on
     March 30, 2007. ARAMARK is a privately held corporation that provides food services and facilities
     management to both businesses and government. Headquartered in Philadelphia, Pennsylvania,
     ARAMARK has approximately 250,000 employees serving clients in 19 countries.
      $50,849,142.972 to manage and operate the SRC and cafeterias. Table 1 below
      summarizes key aspects of the FDIC’s contract with ARAMARK.

          Table 1: ARAMARK Contract Information
           Contract Type                                  Firm Fixed Price with Reimbursable
                                                          Elements
           Term                                           4-year base, plus three 2-year options
           Base Period of Performance                     March 31, 2007 – March 30, 2011
           Maximum that can be billed to the FDIC         $50,849,143 over 10 years
          Source: Office of Inspector General (OIG) analysis of the ARAMARK contract.



      The SRC is an FDIC-owned 11-story hotel with 350 units. The hotel’s primary purpose
      is to provide lodging for out-of-town federal and state regulatory personnel who use the
      FDIC’s training and educational center at the Virginia Square facility. The SRC is open
      24 hours a day, 7 days a week, 365 days a year. The cafeterias at the FDIC’s
      Headquarters building and the Virginia Square facility provide complete breakfast and
      lunch services and are open on weekdays. In addition, ARAMARK provides requested
      catering services for events sponsored by the FDIC and outside organizations.


Contract Administration and Oversight Management

      The FDIC’s Acquisition Policy Manual (APM) defines the policies and procedures for
      procuring goods and services and assigning key roles and responsibilities in all phases of
      the procurement process. Among other things, the APM requires that an FDIC employee
      serve as an Oversight Manager (OM) to monitor and evaluate contractor performance.
      The APM also provides that the FDIC’s Contracting Officers (CO) may appoint a
      Technical Monitor (TM) to assist the OM in monitoring and evaluating contractor
      performance. The CO is required to provide the OM and TM with a confirmation letter
      describing their contract oversight authorities, duties, and responsibilities. DOA has
      assigned an OM and a TM for the ARAMARK contract. In addition, section 6.404 of the
      APM requires that the CO and OM develop a Contract Management Plan (CMP) for the
      ARAMARK contract. A key objective of the CMP is to ensure that the CO, OM, and
      TM have a common understanding of both contractor and FDIC obligations under the
      contract.

      Our audit focused on assessing 11 key oversight management controls designed to ensure
      that ARAMARK complies with the terms and conditions of its contract with the FDIC.
      We identified these 11 controls based on an analysis of the APM, the OM and TM
      confirmation letters, and the FDIC’s contract with ARAMARK. The 11 controls are
      Personnel Qualifications, Certificate of Insurance Coverage, FDIC-furnished Equipment,
      Internal Contractor Audits, Invoice Review and Approval, Cash Receipts, Emergency

      2
       The FDIC’s Board of Directors has delegated to management the authority to exceed expenditures by 15
      percent. The amount of $50,849,143 is about 3.3 percent above the Board-approved amount of
      $49,225,039.
                                                        2
     Preparedness Program, Award Term Plan, Quality Assurance Plan, Monitoring and
     Inspection of Contractor Services, and Contract Management Plan.


ARAMARK Contract Financial Information

     The FDIC pays ARAMARK a fixed monthly management fee and reimburses the firm
     for certain expenses in exchange for operating the SRC and the two cafeterias. The
     monthly management fee covers all labor costs incurred by ARAMARK and
     ARAMARK’s profit. Reimbursed expenses include such things as food and beverages;
     maintenance, replacement, and repair of equipment; and credit card transaction fees.
     ARAMARK submits separate monthly invoices and operating statements for the SRC
     and each of the cafeterias. Under the terms of the contract, ARAMARK may deduct its
     management fees and reimbursed expenses from the sales revenues it collects from food
     sales, hotel room rentals, and other services provided under the contract. Because
     ARAMARK’s management fees and reimbursed expenses often exceed the sales
     revenues it collects, the FDIC pays ARAMARK a monthly subsidy. Table 2 below
     summarizes the total sales revenues, management fees, reimbursed expenses, and subsidy
     on the ARAMARK contract. More details on sales revenues, reimbursed expenses,
     management fees, and subsidy for the SRC and cafeterias are in Appendix 2.

     Table 2: ARAMARK Contract Sales Revenues, Management Fees, Reimbursed
     Expenses, and Subsidy (March 31, 2007 – October 2, 2008)
                                   Total (18 months)       Monthly Average
      Sales Revenues                       $8,035,977              $446,443
      Management Fees                    ($8,157,807)            ($453,212)
      Reimbursed Expenses                ($3,106,609)            ($172,589)
      Subsidy                            ($3,228,439)            ($179,358)
         Source: OIG analysis of ARAMARK financial reports.



RESULTS OF AUDIT

     The FDIC has established controls to help ensure proper oversight management of its
     contract with ARAMARK in all but 1 of the 11 oversight management areas that we
     assessed (contractor personnel qualifications). For example, the FDIC has established
     policies and procedures for reviewing and approving invoices and monitoring and
     inspecting contractor services; a CMP to guide the FDIC’s oversight management of
     ARAMARK; and a Quality Assurance Plan to ensure quality and timely services
     from ARAMARK.

     The above actions were positive. However, the FDIC’s implementation of controls
     needed improvement in 9 of the 11 areas that we assessed. Of particular note, the FDIC
     had not obtained a physical inventory of FDIC-furnished equipment, which includes
     equipment and small wares,3 for the cafeterias covered under the contract. Additionally,
     3
         Small wares include small kitchen and bar appliances, glassware, tableware, and flatware.
                                                          3
      the FDIC had not identified emergency response and continual-use requirements
      pertaining to the SRC and cafeterias operated by ARAMARK. Further, the FDIC
      reviews ARAMARK’s invoices and supporting documentation for accuracy,
      reasonableness, and compliance with the terms of the contract; however, charges on the
      invoices are not traced (on a sample basis) to original documentation.


OVERSIGHT MANAGEMENT OF THE ARAMARK CONTRACT

      For all but 1 of the 11 key oversight management areas assessed, the FDIC had
      established controls to help ensure proper oversight management of the ARAMARK
      contract. However, the implementation of these controls needed improvement.
      Weaknesses in the implementation of these controls were generally caused by a lack of
      attention to these control areas in the CMP. A brief description of our assessment for
      each of the 11 oversight management control areas follows.


Personnel Qualifications

      Section 4.4, Personnel Qualifications, of the ARAMARK contract states that personnel
      qualifications defined in the contract will be used in determining whether contractor and
      subcontractor personnel meet the minimum requirements of the contract. Section 4.4 also
      states that ARAMARK shall provide the CO and OM with quarterly letters certifying that
      all contractor and subcontractor personnel working under the contract satisfy the
      personnel qualifications defined in the contract. However, the ARAMARK contract did
      not define personnel qualification requirements, and ARAMARK did not provide the CO
      or OM with the required quarterly certifications.

      We spoke with the CO regarding these discrepancies and were advised that personnel
      qualifications were not included in the ARAMARK contract because such information is
      not applicable to performance-based contracts,4 such as the ARAMARK contract. The
      CO indicated that personnel qualifications are typically required for time-and-materials-
      type contracts containing Statements of Work that direct the contractor to perform work
      in a specific manner. The CO added that key personnel were approved to work on the
      ARAMARK contract following an assessment of their résumés contained in
      ARAMARK’s original proposal. The CO indicated that the OM is responsible for
      ensuring that any new key personnel assigned to the contract are qualified, consistent
      with section 6.0 of the contract’s Performance Work Statement (PWS).

      We reviewed a key personnel change request, dated July 2008, to the ARAMARK
      contract. A memorandum in the contract file, co-signed by the CO and OM, indicated

      4
       According to a federal inter-agency publication entitled, Seven Steps to Performance-Based Acquisition,
      performance-based acquisitions require that some traditional approaches to buying services, such as
      specifying labor categories, educational requirements, or the number of hours of support required, be
      eliminated in favor of allowing contractors to propose the best people with the best skill sets to meet the
      government’s need.
                                                          4
      that personnel qualifications had been considered in recommending acceptance of the
      proposed personnel. While such actions are positive, the FDIC should amend the
      ARAMARK contract to reflect its approach for ensuring that contractor and
      subcontractor personnel satisfy the FDIC’s minimum personnel qualification
      requirements. Such an amendment will minimize potential ambiguity in the FDIC’s
      expectations of ARAMARK in this regard and protect the FDIC’s interests in the event of
      a contractual dispute related to personnel qualifications.


Certificate of Insurance Coverage

      Section 10.1, Liability Insurance, of the ARAMARK contract requires that the firm carry
      certain types of liability insurance, including worker’s compensation and employer’s
      liability insurance, comprehensive bodily injury and property damage liability insurance,
      and automobile public liability and property damage insurance. Section 10.2,5
      Certificates of Insurance, requires ARAMARK to provide the FDIC with a Certificate of
      Insurance evidencing that the firm carries all of the insurance required by the contract
      within 10 calendar days of the contract’s execution. We determined that ARAMARK’s
      coverage is above the minimum amounts specified in the contract for worker’s
      compensation, employer liability insurance, and automobile public liability and property
      damage insurance. The coverage is equal to the minimum amount specified by the
      contract for comprehensive bodily injury and property damage liability insurance.

      Although the OM maintained a copy of the Certificate of Insurance provided by
      ARAMARK when the contract was executed, the terms of the policies had since expired.
      We spoke with the OM about this matter and learned that ARAMARK had renewed its
      insurance without a gap in coverage but had not provided the OM with an updated
      Certificate of Insurance. Following our discussion, the OM requested and obtained a
      current Certificate of Insurance from ARAMARK. Certificates of Insurance provide the
      FDIC important assurance that its business interests are protected. Absent adequate
      insurance coverage, the FDIC could be unnecessarily exposed to financial liability due to
      injuries and accidents. The FDIC should modify the CMP for the ARAMARK contract
      to require that the OM maintain a current Certificate of Insurance to ensure that the
      FDIC’s business interests are adequately protected.


FDIC-furnished Equipment

      Section 6.5, Contractor Responsibilities, of the PWS in the ARAMARK contract, states that
      within 1 week of contract award, ARAMARK will provide the OM with an inventory list of
      all FDIC-furnished equipment, including small wares, at each foodservice location. Under
      the terms of the contract, ARAMARK is responsible for maintaining the approved copy of
      the inventory and updating the inventory as required. The Letter of Oversight Manager

      5
       According to section 10.2, ARAMARK is required to have its insurance carrier(s) certify to the FDIC that
      all required insurance is in force and that such certifications stipulate that the insurance will not be
      cancelled or substantially changed without 30 days’ prior notice, by certified mail, to the FDIC’s CO.
                                                             5
      Confirmation assigns the OM responsibility for implementing the FDIC-furnished equipment
      provisions of the contract, including preparing an itemized list of such equipment, showing
      serial numbers, if any; providing the CO with the equipment list; and ensuring the contractor
      acknowledges, in writing, receipt for such equipment. However, the OM did not obtain the
      initial or current inventory lists of equipment for either of the two cafeterias covered under
      the contract. During the audit, we obtained the original inventory list of equipment at the
      Virginia Square cafeteria as well as current inventory lists of equipment for both the
      Headquarters building and Virginia Square cafeterias. We could not obtain the initial
      inventory list of equipment for the Headquarters building cafeteria because it did not exist.

      Verifying inventories of FDIC-furnished equipment is a key control for ensuring a proper
      accounting of FDIC assets and for deterring instances of loss due to theft. The CMP should
      be amended to include a requirement to maintain the current inventory of FDIC-furnished
      equipment.


Internal Contractor Audits

      Section 8.0, Record-Keeping Requirements, of the PWS in the ARAMARK contract
      states that ARAMARK shall conduct, or engage a third party to conduct, internal audits
      of the FDIC operation at least annually, with copies of any findings forwarded to the CO.
      ARAMARK’s internal audits are based on the completion of standard corporate forms
      containing specific audit steps. The audits cover, among other things, sales revenues and
      expenses for both the SRC and cafeteria. Table 3, which follows, lists the internal audits
      that ARAMARK completed during the period March 31, 2007 through October 2, 2008.

      Table 3: ARAMARK’s Internal Audits

                FDIC Facility Audited                     Audit Completion Date
        Headquarters Cafeteria                       September 11, 2007
        Headquarters Cafeteria                       December 27, 2007
        SRC                                          September 19, 2008
        Virginia Square Cafeteria                    September 24, 2008
       Source: OIG analysis of ARAMARK’s internal audits.

      Although FDIC management relies on ARAMARK’s internal audits to ensure accurate
      reporting of sales revenues and expenses, neither the OM nor the CO reviewed the audit
      results or held discussions with the auditors to assess the sufficiency of the audit work
      performed. In addition, as shown in Table 3, internal audits were not performed within
      1 year of contract start on March 31, 2007, as required by the contract. As a result, the
      FDIC’s reliance on ARAMARK’s internal audits for accurate reporting of revenues and
      expenses is limited. Without adequate assurance of accurate reporting of sales revenues
      and expenses, the FDIC could pay an excessive subsidy to ARAMARK. The CMP
      should be amended to include a requirement for the OM to review internal audit reports
      and discuss the results with the ARAMARK’s internal auditors. Such actions will
      provide for greater assurance that corrective actions are implemented for identified
      deficiencies in a timely manner.
                                                    6
Invoice Review and Approval

      Section 5.2.6, FDIC Review, of the ARAMARK contract states that the OM will review
      each invoice for reasonableness and accuracy prior to approving the invoice for payment.
      In addition, the Letter of Oversight Manager Confirmation authorizes the OM to approve
      invoices for payments. We selected a non-statistical sample6 of two monthly invoices,
      totaling $231,210.95, that were submitted under the ARAMARK contract during 2008 in
      order to assess the extent to which the OM had analyzed the invoices prior to payment.
      We confirmed that the OM had, in fact, reviewed the invoices and supporting
      documentation for accuracy, reasonableness, and compliance with the terms of the
      contract. Further, we independently verified the accuracy of revenues and expenses,
      including management fees on the invoices. However, most of the documentation
      supporting the monthly invoices consisted of secondary reports and schedules generated
      by ARAMARK instead of original documentation (e.g., purchase orders, delivery slips,
      invoices, and credit card receipts.) We contacted ARAMARK for additional
      documentation and explanations for a number of items, such as tax amounts, external
      catering charges, and software usage charges.

      The OM did not trace charges on ARAMARK’s monthly invoices (on a sample basis) to
      original documentation because of time constraints. Instead, the OM relied on
      ARAMARK’s internal audits as a control for ensuring the accuracy of sales revenues and
      expenses on the invoices. However, as previously described, ARAMARK’s internal
      audits provided limited assurance regarding the accuracy of ARAMARK’s monthly
      invoices because the FDIC had not reviewed the sufficiency of ARAMARK’s underlying
      audit work. Although our tests of the two invoices did not identify any improper charges,
      it would be prudent for the FDIC to independently verify, on at least a sample basis, the
      accuracy of charges to original documentation. Conducting such verifications, or
      requesting independent audits7 of invoices by ARAMARK, would significantly increase
      the FDIC’s assurance that invoices reflect accurate sales revenues and expenses. The
      CMP should be modified to include a requirement for periodic independent verifications
      of ARAMARK invoices.


Cash Receipts

      Section 6.9, Revenue Management, of the PWS in the ARAMARK contract requires
      ARAMARK to employ sound cash management practices to ensure that sales revenues
      are properly recorded and that all charges are supported by appropriate vouchers. Cost
      controls and sound cash management practices are significant performance indicators
      under the contract. We assessed selected controls for cash receipts at the SRC and the
      two cafeterias. With regard to the SRC, we assessed the Reconciliation Reports prepared

      6
        The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.
      7
        Section 8.0(d)(1) of the PWS states that periodic accounting or management audits of the operation may
      be requested by the FDIC. Auditors (employees or agents of the FDIC) will be allowed full access to the
      contractor’s on-site and off-site facilities and records pertaining to the ARAMARK contract.
                                                             7
      by front desk personnel to close out and reconcile cash receipts at the end of each shift
      and Daily Sales Recap reports prepared by the night auditor for March 11, 2008 and
      September 19, 2008. With regard to the two cafeterias, we assessed the Cashiers
      Reports, prepared by the cashiers to record sales receipts at the end of each shift, and
      Café Sales Spreadsheets, prepared by the Head Cashier to record sales, customer counts,
      and ending cash register records, for March 17, 2008 (Headquarters cafeteria) and
      September 10, 2008 (Virginia Square cafeteria). We also assessed daily bank deposit
      slips for the SRC and the cafeterias. Based on our analysis of this information, we
      concluded that ARAMARK had implemented control measures that provide reasonable
      assurance that cash receipts are properly recorded and deposited.


Emergency Preparedness Program

      Section 1.6, Emergency Preparedness, of the ARAMARK contract requires that, upon
      notice by the FDIC of an emergency situation, the contractor shall take immediate and
      effective measures to ensure the continual availability or use of services and/or systems
      as long as the actual or threatened emergency situation exists. In addition, section 9.0,
      Emergency Planning Procedures, of the PWS for the contract states that the contractor
      will comply with the FDIC emergency action plan developed by DOA for the SRC and
      office buildings housing both cafeterias covered under the contract. The FDIC’s
      Emergency Preparedness Program (EPP) Manual8 defines how the FDIC will ensure the
      safety and security of all FDIC personnel and the efficient resumption of the FDIC’s
      critical business processes during and after an emergency. However, the EPP Manual did
      not identify emergency response or continual-use requirements for the SRC and
      Headquarters building and Virginia Square cafeterias in the event of an emergency.
      DOA needs to identify emergency response and continual-use requirements in the EPP
      Manual for the preparedness requirements pertaining to the SRC and cafeterias operated
      by ARAMARK, and update the CMP accordingly. Such action will help to ensure that
      ARAMARK meets the FDIC’s expectations in the event of an emergency.


Award Term Plan

      Attachment 8, Award Term Plan, of the ARAMARK contract, establishes a program for
      the FDIC to evaluate ARAMARK’s performance under the contract. The FDIC uses the
      results of the program evaluation, among other things, to motivate the contractor to the
      highest possible level of service, consistent with cost. We found that the Award Term
      Plan defined clear performance evaluation criteria and required annual reviews by the
      FDIC. The first annual review was conducted in May 2008, and the results are
      documented in the contract oversight file. The results indicate that ARAMARK met the
      performance goals defined in the Award Term Plan and that the FDIC was satisfied with
      ARAMARK’s performance.


      8
       The EPP Manual, dated August 2008, contains both the FDIC’s Emergency Response and Business
      Continuity Plan.
                                                      8
Quality Assurance Plan

      ARAMARK’s Quality Assurance Plan (QAP), which is an attachment to the contract,
      establishes quantitative performance standards for each of the performance objectives
      defined in the QAP. Such performance objectives pertain to guest satisfaction;
      cleanliness; reporting, accounting, and cost control; SRC occupancy rate; and the
      achievement of subcontracting goals defined in the contract. DOA assessed the extent to
      which ARAMARK met the performance standards defined in ARAMARK’s QAP as part
      of the first-year Award Term Plan review. The FDIC found that the performance
      standards had been met for each of the performance objectives with the exception of
      cleanliness, for which performance standards could not be fully evaluated because the
      OM had not participated in an annual sanitation audit of the cafeterias conducted by
      ARAMARK, as required by the QAP, during the first contract year ending in March 31,
      2008. The OM subsequently participated in sanitation audits for the Headquarters
      cafeteria in January 2009 and the Virginia Square cafeteria in October 2008. Timely OM
      participation in sanitation audits is important for ensuring that ARAMARK maintains the
      dining facilities in a clean, orderly, and sanitary condition. The CMP should be amended
      to require that the OM participate in all annual sanitation audits.


Monitoring and Inspection of Contractor Services

      The APM requires that a Letter of Oversight Manager Confirmation be issued by the CO
      to the OM. This letter authorizes the OM to monitor and inspect the contractor’s progress
      and performance to assure compliance with the terms and conditions of the contract.
      Similarly, the Letter of Technical Monitor Confirmation describes duties and
      responsibilities that the OM can assign to the TM. These duties and responsibilities can
      include conducting visits to the contractor’s work site to determine actual contractor
      performance and providing ongoing monitoring and evaluation of the contractor’s
      technical and cost performance.

      We spoke with the OM and TM and confirmed that monitoring and inspections occur on
      a regular basis. For example, the OM and TM indicated that they observe ARAMARK’s
      operations at the SRC and Virginia Square cafeteria daily and at the Headquarters
      building cafeteria approximately once every 2 weeks. The TM also indicated that
      catering events are observed on the average of two or three times per week. As part of
      these observations, the TM checks on the room setup, food arrangements, and
      housekeeping. Both the OM and TM indicated that they spend considerable time
      responding to oral and e-mail requests from FDIC personnel and ARAMARK
      management. The OM and TM also indicated that they rely on the governments of the
      District of Columbia and Arlington County, Virginia, to conduct inspections of the SRC
      and cafeterias for compliance with health and safety standards and overall quality
      assurance. In addition, the OM periodically completes a standard ARAMARK form,
      Food Safety and Sanitation Audit Form, as prescribed by the QAP.



                                                 9
      While these actions were positive, our report identifies opportunities to improve
      monitoring and inspection in the areas of contractor insurance coverage, FDIC-furnished
      equipment, internal contractor audits, invoice review and approval, and participation in
      sanitation audits. These improvements are addressed in previous sections of this report;
      therefore, we are not making a specific recommendation pertaining to monitoring and
      inspection.


Contract Management Plan

      The CO and OM developed the CMP, dated March 7, 2007, for the ARAMARK contract.
      The CMP includes various sections such as Regular Contact between the Contracting
      Officer and the Oversight Manager; Contractor Progress Meetings; Technical Guidance
      to Contractor during Performance of the Contract; and Inspection Criteria. The CO,
      OM, and TM fulfill the oversight functions specified in the CMP. However, as described
      in this report, the CMP does not specifically address oversight management controls in
      the areas of insurance certificates, inventory of FDIC-furnished equipment, internal
      audits, invoice review and approval, and quality assurance plans. Accordingly, the CMP
      should be amended to address these control areas to ensure that they are implemented.


Recommendations to Improve Oversight Management Practices

      We recommend that the Director, DOA:

      (1)    Amend the ARAMARK contract to reflect the FDIC’s practice for ensuring that
             contractor and subcontractor personnel meet minimum qualification requirements.
      (2)    Develop emergency response and continued-use requirements for the SRC and
             Headquarters building and Virginia Square cafeterias and incorporate these
             requirements in the EPP Manual.
      (3)    Amend the CMP to require that the OM and/or CO:
            o Obtain and maintain up-to-date Certificates of Insurance;
            o Maintain and periodically inspect inventories of equipment and small wares for
              the Headquarters and Virginia Square cafeterias;
            o Assess ARAMARK’s internal audits for sufficient coverage of sales revenues and
              expenses and ensure they are performed on a timely basis;
            o Conduct periodic verifications or audits of ARAMARK invoices;
            o Ensure ARAMARK’s emergency response and continued-use plans for the SRC
              and cafeterias support the FDIC’s EPP requirements in accordance with the
              contract; and
            o Participate in sanitation audits as required by the QAP.




                                                10
CORPORATION COMMENTS AND OIG EVALUATION

    On March 27, 2009, the Director, DOA, provided a written response to the draft of this
    report. Management’s response is presented in its entirety in Appendix 3. Management
    concurred with our findings and recommendations.

    In response to recommendation 1, DOA amended the ARAMARK contract by deleting
    section 4.4, Personnel Qualifications. This action removed any potential ambiguity
    going forward surrounding personnel minimum qualifications, which are generally not
    applicable in performance-based contracts such as the FDIC’s ARAMARK contract. In
    response to recommendation 2, DOA plans to develop emergency response and
    continued-use requirements for the SRC and Headquarters building and Virginia Square
    cafeterias and incorporate these requirements into the DOA Business Continuity Plan
    portion of the EPP. In response to recommendation 3, DOA has modified the CMP to
    include each of the oversight management control improvements identified in our report.

    A summary of management’s response to each of the report’s recommendations is in
    Appendix 4. DOA’s actions to address recommendations 1 and 3 are considered
    responsive, resolved, and closed. Recommendation 2 is resolved but will remain open
    until we determine that the agreed-to corrective actions have been completed and are
    responsive.




                                              11
                                                                                           APPENDIX 1
                            OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

        The audit objective was to assess key oversight management controls pertaining to the
        FDIC’s contract with ARAMARK. We conducted this performance audit from
        November 2008 through January 2009 in accordance with generally accepted government
        auditing standards. Those standards require that we plan and perform the audit to obtain
        sufficient, appropriate evidence to provide a reasonable basis for our findings and
        conclusions based on our audit objective. We believe that the evidence obtained provides
        a reasonable basis for our findings and conclusions based on our audit objective.


Scope

        The scope of the audit focused on 11 key contract oversight management controls that we
        identified based on an analysis of the APM, the OM and TM confirmation letters, and the
        ARAMARK contract. The scope included the SRC at Virginia Square and the FDIC’s
        Headquarters building and Virginia Square cafeterias. Our work did not include
        procedures to assess sales and marketing support for the SRC, conference planning, or
        the vending machines. In addition, we did not perform procedures to assess contractor
        employee background checks because this area was addressed in a prior audit.9

        The period of review covered 18 monthly invoice cycles from March 31, 2007 (contract
        inception) through October 2, 2008.


Methodology

        To achieve our objective, we:

            •   Reviewed the FDIC’s contract No. CORHQ-07-C-000210 with ARAMARK
                executed February 14, 2007, including the contract’s attachments and
                modifications.11

            •   Interviewed DOA representatives regarding their roles and responsibilities and the
                controls the FDIC has in place to help ensure effective contract oversight
                management of ARAMARK and its subcontractors. We also interviewed
                ARAMARK management officials to obtain their perspective on the FDIC’s
                oversight management practices and controls.


        9
          The OIG issued Contract Terms and Oversight Management Related to ARAMARK Services, Inc., Report
        No. 03-047 dated September 30, 2004.
        10
           The initial contract number CORHQ987 was changed to CORHQ-07-C-0002 under Modification
        No. P00005, dated August 6, 2008.
        11
           Attachments to the contract include the: PWS, Contractor’s Proposal, FDIC General Provisions,
        U.S. Department of Labor Wage Determination, FDIC Contractor Travel Reimbursement Guidelines,
        Award Term Plan, Contractor Confidentiality Agreement, and Approved Subcontractors.


                                                       12
                                                                                            APPENDIX 1


           •   Analyzed relevant reports and contract-specific documents such as ARAMARK
               monthly invoices, the Year One Review report for the Award Term Plan, the QAP,
               and ARAMARK internal audits for the SRC and Headquarters building and
               Virginia Square cafeterias.

           •   Reviewed the DOA, Management Support Section’s, Study of the FDIC Virginia
               Square Student Resident Center Operations, dated January 11, 2006. An
               objective of this study was to determine the adequacy of controls over cash
               receipts.12

           •   Reviewed the FDIC’s APM, including the Letter of Oversight Manager
               Confirmation and Letter of Technical Monitor Confirmation.

           •   Identified and assessed key controls designed to ensure effective contract
               oversight management of ARAMARK and its subcontractors.13

           •   Selected a non-statistical sample14 of two monthly invoices to determine whether
               revenue and expenses, including management fees, were adequately supported
               and the subsidy calculations were correct. The two invoices selected for testing
               were:

                      Invoice No.          Period of Performance                 Amount
                     KC00689549          February 22 – March 27, 2008           $163,377.68
                     KC00696639           August 22 – October 2, 2008            $67,833.27

           •   Reviewed and tested ARAMARK’s controls for revenue processing, including
               cash receipts.


Internal Control

      We identified and assessed the following key internal controls related to the oversight
      management of the ARAMARK contract:

           •   Personnel Qualifications
           •   Certificate of Insurance Coverage
           •   FDIC-furnished Equipment
           •   Internal Contractor Audits
           •   Invoice Review and Approval

      12
         We used Appendix A from the Study of the FDIC Virginia Square Student Resident Center Operations to
      document the SRC controls for revenue, including cash receipt processing.
      13
         We used Government Accountability Office publications, Standards for Internal Control in the Federal
      Government (GAO/AIMD-00-21.3.1, November 1999) and Assessing Internal Controls in Performance
      Audits (GAO OP-4.1.4, September 1990).
      14
         The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.


                                                       13
                                                                                  APPENDIX 1


         •   Cash Receipts
         •   Emergency Preparedness Program
         •   Award Term Plan
         •   Quality Assurance Plan
         •   Monitoring and Inspection of Contractor Services
         •   Contract Management Plan


Reliance on Computer-processed Data

      Our audit objective did not require that we separately assess the reliability of computer-
      processed data to support our findings, conclusions, and recommendations. Additionally,
      in performing this audit, we did not consider it necessary to evaluate the effectiveness of
      information system controls in order to obtain sufficient, appropriate evidence.


Performance Measurement

      We reviewed the FDIC Strategic Plan 2005 through 2010 and the FDIC Annual
      Performance Plan for 2008 and determined that they do not include objectives or goals
      related to the FDIC’s contract with ARAMARK.


Compliance with Laws and Regulations and Fraud and Abuse

      Although the ARAMARK contract references a number of statutes and regulations, none
      were considered significant to the audit’s objective. We assessed the risk of fraud and
      abuse related to the audit objective in the course of evaluating audit evidence.


Prior Coverage

      We considered the following reports previously issued by the OIG in planning and
      conducting our work:

         •   Contract Terms and Oversight Management Related to ARAMARK Services, Inc.,
             Report No. 03-047, dated September 30, 2004
         •   ARAMARK Services, Inc. Billings to the FDIC Under Contract 00-00611-C-J3,
             Report No. 03-046, dated September 30, 2003
         •   Audit of FDIC’s Food Services Contract with ARAMARK Services, Inc., Report
             No. 99-009, dated February 5, 1999.




                                                 14
                                                    APPENDIX 2
          FINANCIAL INFORMATION FOR THE ARAMARK CONTRACT


The table below shows the revenue, reimbursed expenses, management fees, and subsidy
for the SRC, Headquarters cafeteria, and Virginia Square cafeteria based on monthly
invoices and supporting operating statements obtained during the audit.

                                                       Total
                                                  (Mar. 31, 2007 –             Monthly
                                                   Oct. 2, 2008)               Average
         Student Residence Center
         Revenues                                         $5,199,442                $288,858
         Management Feesa                               ($4,493,067)              ($249,615)
         Reimbursed Expensesa                             ($427,854)               ($23,770)
                                                          _________               _________
         SRC Subsidyb                                       $278,521                 $15,473

         Headquarters Building
         Cafeteria
         Revenues                                           $640,253                 $35,570
         Management Feesa                               ($1,336,590)               ($74,255)
         Reimbursed Expensesa                             ($712,599)               ($39,589)
                                                          _________               _________
         Headquarters Building Cafeteria                ($1,408,937)               ($78,274)
         Subsidyb

         Virginia Square Cafeteria
         Revenues                                         $2,196,283                $122,016
         Management Feesa                               ($2,328,150)              ($129,342)
         Reimbursed Expensesa                           ($1,966,155)              ($109,231)
                                                          _________               _________
         Virginia Square Cafeteria                      ($2,098,023)              ($116,557)
         Subsidyb
     a
       Under the terms of the contract, ARAMARK may deduct its management fees and reimbursed
     expenses from the sales revenues it collects from food sales, hotel room rentals, and other services
     provided under the contract.
     b
       Because ARAMARK’s management fees and reimbursed expenses often exceed the sales revenues
     it collects, the FDIC pays ARAMARK a monthly subsidy.




                                                  15
                       APPENDIX 3

CORPORATION COMMENTS




         16
                                                                                              APPENDIX 3




                                                                                                           *




* The attachment is not included in this appendix but can be provided under separate cover.




                                                             17
                                                                                                        APPENDIX 4
                       MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the status of the
recommendations as of the date of report issuance.

          Rec.    Corrective Action: Taken            Expected      Monetary      Resolved:a     Open or
          No.            or Planned                  Completion     Benefits      Yes or No      Closedb
                                                        Date
           1     DOA amended the ARAMARK             03/18/2009         $0        Yes            Closed
                 contract by deleting Section 4.4,
                 Personnel Qualifications.
           2     DOA plans to develop                08/31/2009         $0        Yes            Open
                 emergency response and
                 continued-use requirements for
                 the SRC and cafeterias and
                 incorporate these requirements
                 into the DOA Business
                 Continuity Plan portion of the
                 EPP.
           3     DOA has modified the CMP to         03/09/2009         $0        Yes            Closed
                 include each of the oversight
                 management control
                 improvements identified in the
                 report.


      a
          Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                         corrective action is consistent with the recommendation.
                     (2) Management does not concur with the recommendation, but alternative action meets the intent
                        of the recommendation.
                     (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                         Monetary benefits are considered resolved as long as management provides an amount.
      b
        Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
      recommendations, the recommendations can be closed.




                                                           18
                                            APPENDIX 5
              ACRONYMS USED IN THE REPORT



APM   Acquisition Policy Manual
CMP   Contract Management Plan
CO    Contracting Officer
DOA   Division of Administration
EPP   Emergency Preparedness Program
OIG   Office of Inspector General
OM    Oversight Manager
PWS   Performance Work Statement
QAP   Quality Assurance Plan
SRC   Student Residence Center
TM    Technical Monitor




                               19
